<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2015 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







 THE PRESIDENT'S FISCAL YEAR 2015 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2014

                               __________

                           Serial No. 113-56

                               __________

       Printed for the use of the Committee on Homeland Security





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-556 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001









                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Richard Hudson, North Carolina       Steven A. Horsford, Nevada
Steve Daines, Montana                Eric Swalwell, California
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                        Vacancy, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                                Witness

Hon. Jeh C. Johnson, Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                                Appendix

Question From Honorable Susan W. Brooks for Honorable Jeh C. 
  Johnson........................................................    39
Question From Honorable Steve Daines for Honorable Jeh C. Johnson    39

 
 THE PRESIDENT'S FISCAL YEAR 2015 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

                              ----------                              


                        Thursday, March 13, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:29 p.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Rogers, 
Broun, Miller, Duncan, Palazzo, Barletta, Hudson, Brooks, 
Perry, Sanford, Thompson, Sanchez, Jackson Lee, Clarke, 
Richmond, Barber, Payne, O'Rourke, Gabbard, Horsford, and 
Swalwell.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to hear testimony from 
Secretary Jeh Johnson on the administration's fiscal year 2015 
budget request for the Department of Homeland Security.
    I now recognize myself for an opening statement.
    Today, we convene to take an in-depth look at the 
President's budget as it relates to protecting the homeland. 
Budgets are important documents, not just operationally, but 
because they expose priorities. After a review of the budget, I 
must say I was disappointed that the budget request proposes 
new entitlement spending, while recommending nearly $1 billion 
in cuts to the Department of Homeland Security.
    As continuous unrest around the world makes clear, 
America's National security does not end at our shores. On-
going tensions in the Middle East, Africa, Syria, and now in 
Ukraine constantly remind us that security at home is linked to 
actions abroad.
    Al-Qaeda and its ideas have grown into a proliferating web 
of affiliates signaling its escalation and not its demise. As 
the tragic loss of life in Boston last April made all too clear 
and reminds us that this radical ideology continues to threaten 
us here at home.
    Unfortunately, the realities of growing threats are not 
reflected in the proposed budget. While domestic programs are 
important, now is not the time to create new entitlements at 
the expense of National security.
    The President is calling for $56 billion to fund 
nonessential programs like climate research, while at the same 
time reducing funding for the United States Coast Guard and 
border security missions, and cutting DHS's Science and 
Technology explosives detection research by $15.5 million.
    Last year, after the Boston Marathon bombing, Congress 
undid the multi-year funding decline for the Office of Bombing 
Prevention by providing $13.5 million. This year's budget 
request unfortunately drops that amount back down to $11.5 
million, nearly as low as before the tragic attack in Boston.
    Security must remain a top priority. As the tragic Malaysia 
Airlines disappearance last week is investigated, we are 
reminded that airlines remain vulnerable to numerous threats 
whether mechanical or man-made. From our skies to our seas, the 
Department cannot sustain its mission under this proposed 
budget.
    The proposal reduces the Coast Guard's acquisition budget 
by $300 million, just as old assets that should be replaced are 
retired; and proposes a $32 million cut in funding to CBP air 
and marine flight hours along the border, reducing our 
situational awareness of what is coming across.
    At the same time, the administration again is aiming to 
reduce the number of Congressionally-mandated ICE detention 
beds by 3,500. This is all while the budget gives over $320 
million to GSA and DHS to construct access roads in a building 
to house the Secretary's office at the St. Elizabeths 
headquarters--a construction project that is now slated to be 
finished in 2026.
    This means the administration, in my judgment, is putting 
bureaucracy over the safety and security of our own shores. The 
Navy has already stopped counter-drug missions in South America 
post-sequestration, and now we are retiring a significant part 
of our Coast Guard fleet without replacements on deck. This 
will allow more drugs to make it into our communities. This is 
particularly egregious since the majority of illicit drugs are 
seized off the coast of Colombia and Honduras, not coming 
across our land border.
    For perspective, last year's CBP and Border Patrol seized 
around 45,000 pounds of cocaine while the United States Coast 
Guard took in almost 200,000 pounds. So it is critical that we 
maintain a presence in these transit zones.
    While I am concerned about these cuts, I was relieved and 
pleased to see that this request included a $90 million 
increase for video surveillance along the border. Enhanced 
technology is something this committee has called for 
repeatedly.
    In addition, funding for the Office of Cybersecurity and 
Communications has been increased by roughly 1 percent. The 
increase includes $746 million to secure Federal civilian 
networks, the dot.gov domain, and to help protect the Nation's 
critical infrastructure sectors from cyber threats.
    Still, the majority of the cuts to the Department fall 
under its most critical mission areas, and the current budget 
request is strikingly similar to those we saw under your 
predecessor. Ultimately beyond the cuts today, we must discuss 
the lack of a new strategic planning or vision that this budget 
proposal reflects.
    DHS was scheduled to submit to Congress its Department 
review in December 2013, which outlines its priorities for the 
coming year. We are now well into 2014 and we have yet to 
receive such a document. How can DHS determine what funds need 
to be directed toward what missions when it hasn't outlined its 
missions?
    Last month, Mr. Secretary, you came before this committee 
and told us about your vision for the future of homeland 
security and for the Department. We appreciate you being here 
today. Today, I would like to examine how within the parameters 
of this budget request, your vision for homeland security will 
be executed.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             March 13, 2014
    Today we convene to take an in-depth look at the President's 
budget, as it relates to protecting the homeland. Budgets are important 
documents, not just operationally, but because they expose priorities. 
After a review of the budget, I must say I was disappointed that the 
President's fiscal year 2015 request proposes new entitlement spending, 
while recommending nearly a billion dollars in cuts to the Department 
of Homeland Security.
    As continuous unrest around the world makes clear, America's 
National security does not end at our shores. On-going tensions in the 
Middle East, Africa, Syria, and now in Ukraine, constantly remind us 
that security at home is linked to actions abroad. Al-Qaeda and its 
ideas have grown into a proliferating web of affiliates signaling its 
escalation--not its demise. And as the tragic loss of life in Boston 
last April all too clearly reminded us, this radical ideology continues 
to threaten us here at home.
    Unfortunately, the realities of growing threats are not reflected 
in the proposed budget. While domestic programs are important, now is 
not the time to create new entitlements at the expense of National 
security. The President is calling for $56 billion to fund non-
essential programs, like climate research--while at the same time, 
reducing funding for United States Coast Guard and border security 
missions, and cutting DHS Science & Technology explosives detection 
research by $15.5 million. Last year, after the Boston Marathon 
Bombing, Congress undid the multi-year funding decline for the Office 
of Bombing Prevention, by providing $13.5 million. This year's budget 
request, unfortunately, drops that amount back down to $11.5 million, 
nearly as low as before the tragic attack.
    Security must remain a top priority. As the tragic Malaysia 
Airlines disappearance last week is investigated, we are reminded that 
airlines remain vulnerable to numerous threats, whether mechanical or 
man-made. From our skies to our seas, the Department cannot sustain its 
mission under this proposed budget. The proposal reduces the Coast 
Guard's acquisition budget by $300 million just as old assets that 
should be replaced are retired, and proposes a $32 million cut in 
funding to CBP Air and Marine flight hours along the border--reducing 
our situational awareness of what is coming across. At the same time, 
the administration again is aiming to reduce the number of 
Congressionally-mandated ICE detention beds by 3,500. This is all while 
the budget gives over $320 million to GSA and DHS to construct access 
roads and a building to house the Secretary's office at the St. 
Elizabeths Headquarters--a construction project that is now slated to 
be finished in 2026.
    This means the administration, in my judgment, is putting 
bureaucracy over the safety and security of our own shores. The Navy 
has already stopped counter-drug missions in South America post-
Sequestration; and now we're retiring a significant part of our Coast 
Guard fleet, without replacements on deck. This will allow more drugs 
to make it into our communities. This is particularly egregious since 
the majority of illicit drugs are seized off the coasts of Columbia and 
Honduras, not coming across our land borders. For perspective: Last 
year CBP and Border Patrol seized around 45,000 pounds of cocaine, 
while The United States Coast Guard took in almost 200,000 pounds, so 
it is critical that we maintain presence in the transit zones.
    While I am concerned about these cuts, I was relieved to see the 
fiscal year 2015 request includes a $90 million increase for video 
surveillance along the border. Enhanced technology is something this 
committee has called for repeatedly. In addition, funding for the 
office of Cybersecurity and Communications has been increased by 
roughly 1 percent. The increase includes $746 million dollars to secure 
Federal civilian networks--the .gov domain--and to help protect the 
Nation's critical infrastructure sectors from cyber threats.
    Still, the majority of the cuts to the Department fall under its 
most critical mission areas, and the current budget request is 
strikingly similar to those we've seen under your predecessor. 
Ultimately beyond the cuts, today we must discuss the lack of new 
strategic planning that the budget proposal reflects.
    DHS was scheduled to submit to Congress its Department Review in 
December 2013, which outlines its priorities for the coming year. We 
are now well into 2014 and we have yet to receive such a document. How 
can DHS determine what funds need to be directed toward what missions, 
when it hasn't outlined its missions?
    Last month, you sat before this committee and told us about your 
vision for the future of homeland security and for the Department. 
Today, I would like to examine how, within the parameters of this 
budget request, your vision for homeland security will be executed.

    Chairman McCaul. The Chairman now recognizes the Ranking 
Member, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Welcome back, Mr. Secretary. Good to see you again.
    When we last met, you testified before this committee about 
your vision and priorities. The budget request under discussion 
today should provide greater clarity about your vision and 
priorities.
    The budget request that the President submitted on your 
behalf is not simply a collection of numbers and tables. It is 
an expression of your values and aspirations. I would be remiss 
if I did not acknowledge that this proposal was developed in 
less than optimal conditions. The Budget Control Act, which 
forced sequestration cuts, has not only limited DHS's baseline 
funding, but may also cause DHS operations to be limited.
    The comptroller general reports that DHS took certain 
administrative actions, including hiring freezes and employment 
award freezes, to help soften the blow of the funding 
reductions. Even with those actions and the reallocation of 
carryover funding, sequestration took a toll on DHS's 
operations, particularly at the Coast Guard and ICE.
    It also resulted in reduction of support for terrorism 
detection and preparedness, and response on the local level. 
GAO found that the Coast Guard interdictions of migrants and 
drugs at sea were down by 29 percent and 24 percent, 
respectively. There were also about 6,000 fewer vessel 
inspections.
    At ICE, training and other core activities were reduced to 
cover the cost of maintaining 34,000 detention beds as mandated 
by law. There were also significant reductions in the Port 
Security Grant Program and the Inner City Passenger Rail 
Program. The budget before us today would inflict deeper cuts 
to State and local grant programs.
    Unless the President's proposal to close tax loopholes and 
institute new fees is accepted, there will be a $300 million 
reduction in assistance to State and local governments to 
enhance cyber capabilities and for university programs. 
Department officials expressed concerns to GAO about the 
ability to mitigate future potential budget cuts and how 
effectively the workforce will be able to respond to future 
mission-critical needs.
    While I appreciate the budget addresses a number of key 
priorities at the Department, including border security 
resources and recapitalization of the Coast Guard, I am 
concerned about certain proposals. Particularly, I look forward 
to hearing more about the fee increase proposed in TSA's 
budget. It is rather surprising, given that an increase to the 
fee was just authorized in December, and we would like to see 
whether we are going to have another one, Mr. Secretary.
    Other areas that warrant discussion, including the 
Department's proposal to consolidate State and local 
preparedness grants, which each Congress has unilaterally 
rejected in the past, as well as a reduction in university 
programs. These kinds of programs are essential to building 
homeland security throughout the Nation.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 13, 2014
    Welcome back, Mr. Secretary. It is good to see you again. When we 
last met, you testified to your vision and priorities as the new 
Secretary of Homeland Security. The budget request under discussion 
today should provide greater clarity about your vision and priorities.
    The budget request that the President submitted on your behalf is 
not simply a collection of numbers and tables, it is an expression of 
your values and aspirations. I would be remiss if I did not acknowledge 
that this proposal was developed in less than optimal conditions. The 
Budget Control Act--which forced sequestration cuts--has not only 
limited DHS' baseline funding but may also cause DHS' operations to be 
limited.
    The Comptroller General reports that DHS took certain 
administrative actions, including hiring freezes and employment award 
freezes, to help soften the blow of the funding reductions. Even with 
those actions and the reallocation of carryover funding, sequestration 
took a toll on DHS' operations, particularly at the Coast Guard and 
ICE. It also resulted in reductions of support for terrorism detection, 
preparedness, and response on the local level.
    GAO found that the Coast Guard's interdictions of migrants and 
drugs at sea were down by 29 percent and 24 percent, respectively. 
There were also about 6,000 fewer vessel inspections. At ICE, training 
and other core activities were reduced to cover the costs of 
maintaining 34,000 detention beds, as mandated in law. There were also 
significant reductions to the Port Security Grant Program and The 
Intercity Passenger Rail Program.
    The budget before us today would inflict deeper cuts to State and 
local grant programs. Unless the President's proposal to close tax 
loopholes and institute new fees is accepted, there will be a $300 
million reduction in assistance to State and local governments to 
enhance cyber capabilities and for University Programs.
    Department officials expressed concern to GAO about its ability to 
``mitigate future potential budget cuts'' and about ``how effectively 
the workforce will be able to respond to future mission critical 
needs.'' While I appreciate that the budget addresses a number of key 
priorities at the Department, including border security resources and 
recapitalization of the Coast Guard, I am concerned about certain 
proposals.
    Particularly, I look forward to hearing more about the fee-increase 
proposal in TSA's budget. It is rather surprising, given that an 
increase to the fee was just authorized in December. Other areas that 
warrant discussion include the Department's proposal to consolidate 
State and local preparedness grants and reduce University programs. 
These kinds of programs are essential to building homeland security 
throughout the Nation.

    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded that opening statements may be 
submitted for the record.
    I am pleased today to welcome, sir, you back to this 
committee. Secretary Jeh Johnson was sworn in on December 23, 
2013 as the fourth Secretary of the Department of Homeland 
Security. Prior to that, he served as general counsel for the 
Department of Defense, where he led more than 10,000 military 
and civilian lawyers across the Department.
    He oversaw the development of legal aspects of many of our 
Nation's counterterrorism policies; spearheaded reforms to the 
military commission system at Guantanamo Bay; and was also 
involved in the raid on the bin Laden compound.
    His career has included extensive service in National 
security law enforcement. As an attorney in both private 
practice and as an assistant United States attorney, which--I 
share that experience with him. Of course, he was in the 
Southern District of New York, which is one of the most 
esteemed offices in the Nation.
    Mr. Johnson, your entire statement will appear in the 
record.
    I now recognize the Secretary for his testimony.

STATEMENT OF HON. JEH C. JOHNSON, SECRETARY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Johnson. Thank you very much, Mr. Chairman.
    You have my prepared statement for the record.
    I just wanted to, in my 5 minutes, hit a couple of top-line 
points.
    First of all, you were kind enough to note my--some of the 
things I worked on at the Department of Defense, including the 
bin Laden matter. I have to say that, you know, any time the 
role of somebody in Washington is mentioned concerning military 
operations, I have to respond by noting the bravery of those 
who were on the front lines for any of our specific military 
operations, and, you know, one of the best parts of the job I 
had there was working with our brave men and women in uniform 
as my client.
    Last time I was here, I think it was Mr. Horsford who 
noted, ``You inherited this. And when you inherit something, 
that means you own it. And when you own it, you are responsible 
for it.'' It is my responsibility, though I did not have 
involvement in the early parts of the preparation of this 
budget submission, it is my responsibility to come here and 
explain it and defend it. That is what I intend to do today.
    There is no doubt that this budget submission reflects 
tough choices during tough times--tough fiscal times. The 
administration--the President had to make some very tough 
choices in the submission which you have here today. I am 
satisfied that this budget submission funds our priorities in 
the Department of Homeland Security. It funds what I believe to 
be my priorities and my vision for the Department of Homeland 
Security. and I would like to note a couple of things about it.
    First, we are maintaining a record number of Border Patrol 
agents at the border--21,370 with this submission. With this 
submission, we ask for increase in CBP officers to 25,775, to 
adequately support our efforts at drug interdiction, illegal 
crossings at the ports, to expedite trade at the ports.
    As the Chairman noted, we are asking for $90 million in 
mobile and remote surveillance. For our Border Patrol, border 
security efforts, I think that is critical. It is also 
consistent with what our Border Patrol agents on the front 
lines have told me that they need when I visited the border 
most recently.
    We are moving forward with our continued efforts to 
recapitalize the Coast Guard. We have asked for funding for the 
8th National Security Cutter.
    We are moving forward with a $20 million request for the 
design feature of the offshore patrol cutter. We have asked for 
funding for the fast response cutter, as well. We are moving 
forward with recapitalization on all three of those fronts, 
while decommissioning some older assets.
    TSA PreCheck, global entry are key priorities. In my view, 
they represent risk-based security in that they enhance 
security. At the same time, they are a smart use of taxpayer 
dollars, and also popular with the American public. This 
submission asks for $1.2 billion across the Department overall 
for cybersecurity, including $377 million for our programs to 
protect the dot.gov world, the third phase of which is about to 
deploy.
    We ask for funding for NBAF, the bio ag facility in Kansas, 
which is an important priority, in my view.
    Chairman, you are correct that this request includes a 
request for fees or fee increases. COBRA immigration user fees. 
The aviation infrastructure fee we ask be restored from the 
fiscal year 2013 level. The 9/11 security fee--we ask for a 40 
cent increase in that one. There was a long period where the 
fee was not increased at all. It was increased last year to 
$5.60. We asked that it be increased to $6. This reflects, in 
part, the view which I very much share that when it comes to 
aviation, those of us--and I put myself in this category when I 
am a private citizen--you use the system more often, then the 
general taxpayer should foot more of the bill.
    So, when I was in private law practice, for example, I 
would fly perhaps four or five times a month to various 
different places. In my judgment, those of who use aviation--
commercial aviation more often should foot more than the bill 
than the average taxpayer that you represent here in Congress.
    We are making terrific progress on filling vacancies, as 
you know. Three of our nominees were confirmed by the Senate 
last week. We have three more awaiting Senate confirmation. 
This injects new energy into the Department. We are making 
great progress there. As I have discussed with a number of 
Members of this committee, we are developing a budget process 
and an acquisition process to reduce, eliminate inefficiencies 
and duplications of effort.
    I look forward to your questions.
    [The prepared statement of Secretary Johnson follows:]
                  Prepared Statement of Jeh C. Johnson
                             March 13, 2014
    Chairman McCaul, Ranking Member Thompson, and Members of this 
committee: I begin by thanking this committee for the strong support 
you have provided to the Department the past 11 years. I look forward 
to continuing to work with you in the coming year to protect the 
homeland and the American people.
    I am pleased to appear before the committee to present President 
Obama's fiscal year 2015 budget request for the Department of Homeland 
Security (DHS). The fiscal year 2015 budget request builds on our 
accomplishments over the past 11 years while providing essential 
support to National and economic security.
    The fiscal year 2015 budget reflects President Obama's strong 
commitment to protecting the homeland and the American people. It 
supports and continues our focus on preserving front-line priorities 
across the Department by cutting costs, sharing resources across DHS 
components, and streamlining operations wherever possible. It will 
ensure our men and women on the front lines are well-trained, equipped, 
and supported while continuing to maximize Department-wide 
efficiencies. It will also continue to make responsible investments in 
personnel, technology, and asset recapitalization that are critical to 
ensuring our future security, while recognizing that difficult fiscal 
choices must be made.
    The basic missions of DHS are and should continue to be preventing 
terrorism and enhancing security; securing and managing our borders; 
enforcing and administering our immigration laws; safeguarding and 
securing cyber space; and strengthening National preparedness and 
resilience. The President's fiscal year 2015 budget request provides 
the resources necessary to maintain and strengthen our efforts in each 
of these critical mission areas.
    In all, the fiscal year 2015 budget requests $60.9 billion in total 
budget authority, $49.0 billion in gross discretionary funding and 
$38.2 billion in net discretionary funding.
    The cornerstone of the Homeland Security mission is protecting our 
Nation against terrorist attacks. Through the efforts of both the Bush 
and Obama administrations, we have put al-Qaeda's core leadership on a 
path to strategic defeat. But the terrorist threat has continued to 
evolve. We must remain vigilant in detecting and preventing terrorist 
threats that seek to penetrate the homeland from the land, sea, or air. 
We also must continue to build relationships with State and local law 
enforcement, and the first responders in our communities, to address 
the threats we face from those who self-radicalize to violence, the so-
called ``lone wolf'' who may be living quietly in our midst, inspired 
by radical, violent ideology to do harm to Americans--illustrated last 
year by the Boston Marathon bombing.
    The fiscal year 2015 budget strengthens the Department's 
antiterrorism efforts. It requests $3.8 billion for TSA screening 
operations to continue improving aviation security effectiveness by 
aligning passenger screening resources based on risk. It also requests 
more than $1 billion for FEMA's preparedness grants with particular 
emphasis on building and sustaining capabilities that address high-
consequence events that pose the greatest risk to the security and 
resilience of the United States and can be utilized to address multiple 
threats and hazards.
    Border security is essential to homeland security. Good border 
security is both a barrier to terrorist threats, drug traffickers, 
transnational criminal organizations, and other threats to National 
security and public safety, and a facilitator for legitimate trade and 
travel. We are gratified by the support Congress has provided to 
improve security at our borders and ports of entry. With that support, 
we've made great progress. There is now more manpower, technology, and 
infrastructure on our borders than ever before, and our men and women 
in and around the border are producing results. But we must remain 
vigilant.
    The fiscal year 2015 budget builds on this progress by providing 
$362.5 million to maintain the necessary infrastructure and technology 
along the Nation's borders to ensure that law enforcement personnel are 
supported with effective surveillance technology to improve their 
ability to detect and interdict illegal activity in a safer 
environment. The budget invests $90 million in technology that will 
improve remote and mobile video surveillance systems and $11.7 million 
to recapitalize non-intrusive inspection equipment. The budget will 
allow DHS to complete the hiring of up to 2,000 new Customs and Border 
Protection officers, which commenced in fiscal year 2014, and an 
additional 2,000 officers funded by fees in fiscal year 2015, resulting 
in faster processing and inspections of passengers and cargo at U.S. 
ports of entry, which is projected to add nearly 66,000 new jobs, add 
$4 billion to GDP and result in more seizures of illegal items, such as 
drugs, guns, and counterfeit goods. The fiscal year 2015 budget 
supports the salaries, benefits, and operating costs for 21,370 Border 
Patrol agents and 25,775 CBP Officers.
    With respect to removals and immigration enforcement, we must 
continue to prioritize our resources on those who represent threats to 
National security, public safety, and border security. The fiscal year 
2015 budget will provide $2.6 billion to support Immigration and 
Customs Enforcement (ICE) activities to identify, apprehend, and remove 
aliens from the United States. The fiscal year 2015 budget also 
includes $124.8 million to continue expansion and enhancement of the E-
Verify program.
    We will continue to streamline and facilitate the legal immigration 
process while enforcing U.S. immigration laws through the smart and 
effective use of resources. As I have said many times, we must also 
take serious steps forward on immigration reform legislation and find 
common-sense solutions to a problem we all know we have. I am committed 
to working with Congress to achieve that goal.
    In addition, we must continue efforts to address the growing cyber 
threat to the private sector and the ``.gov'' networks, illustrated by 
the real, pervasive, and on-going series of attacks on public and 
private infrastructure. The fiscal year 2015 budget includes $1.27 
billion for DHS cybersecurity activities, including $377.7 million for 
Network Security Deployment, including the EINSTEIN\3\ Accelerated 
(E3A) program, which enables DHS to detect malicious traffic targeting 
civilian Federal Government networks and prevent malicious traffic from 
harming those networks. It also includes $143.5 million for the 
Continuous Diagnostics and Mitigation program, which provides hardware, 
software, and services designed to support activities that strengthen 
the operational security of Federal civilian networks. In support of 
Executive Order 13636, the budget will also provide $8.5 million to 
establish a voluntary program and an enhanced cybersecurity services 
capability.
    DHS also must be vigilant in preparing for and responding to 
disasters, including floods, wildfires, tornadoes, hurricanes, and most 
recently, chemical leaks like the 2014 spill into the Elk River in West 
Virginia that threatened the water supply of hundreds of thousands of 
people. We have come a long way since the days of Hurricane Katrina. We 
have improved disaster planning with public and private-sector 
partners, non-profit organizations, and the American people. With the 
help of this committee, we have also improved the Department's 
emergency response agility through important changes to the structure 
of the Disaster Relief Fund, which brings immediate help and resources 
to our communities in their most dire times of need.
    Of particular note, the President's fiscal year 2015 budget funds 
production of National Security Cutter 8, as part of the 
recapitalization of the Coast Guard, and requests $300 million to 
complete the funding necessary to construct the National Bio- and Agro-
Defense Facility, a state-of-the-art bio-containment facility central 
to the protection of the Nation's food supply and security.
    The fiscal year 2015 budget will provide $10.2 billion to support 
disaster resiliency, primarily through the grants programs that are 
administered by FEMA and the Disaster Relief Fund. Of this total, $2.2 
billion in total grant funding will support State and local government 
efforts to prevent, protect against, respond to, and recover from 
incidents of terrorism and other catastrophic events. Also included are 
Firefighter and Emergency Management Performance Grants that support 
local first responders in achieving their missions, and $7 billion in 
DRF funding to provide immediate and long-lasting assistance to 
individuals and communities stricken by emergencies and major 
disasters.
    Lastly, the budget includes the President's Opportunity, Growth, 
and Security Initiative, which provides a roadmap for additional 
investments to help secure our Nation's future. Specifically, this 
initiative funds $300 million for FEMA's reformed, risk-based approach 
to increase preparedness, mitigation, and emergency response to 
disasters and other threats in communities across the country. The 
Opportunity, Growth, and Security Initiative also dedicates significant 
resources to help our communities prepare for the effects of climate 
change, including $400 million to support planning and pilot projects 
for cities and communities through FEMA hazard mitigation assistance 
and National preparedness grants, and $10 million to help the National 
Protection and Programs Directorate identify critical infrastructure 
facilities and analyze their ability to remain functional after 
disasters.
    As Secretary of Homeland Security, I am mindful of the environment 
in which we pursue each of these important missions. The days are over 
when those of us in National and homeland security can expect more and 
more to be added each year to our top-line budgets. I therefore believe 
I am obliged to identify and eliminate inefficiencies, waste, and 
unnecessary duplications of resources across DHS's large and 
decentralized bureaucracy, while pursuing important missions such as 
the recapitalization of the aging Coast Guard fleet. Over the past 2 
years, the Department has found innovative ways to reduce cost and 
leverage efficiencies, reducing DHS-wide expenses by over $2.7 billion 
during that period. We also reached a major milestone last year when 
the Department achieved its first unqualified or ``clean'' audit 
opinion on its financial reporting. These are important steps in 
maturing the Department's management and oversight functions, but there 
is more to do.
    As part of this agenda we are tackling our budget structure and 
process. DHS currently has 76 appropriations and over 120 projects, 
programs, or activities, and there are significant structural 
inconsistencies across components, making mission-based budget planning 
and budget execution analysis difficult. We are making changes to our 
budget process to better focus our efforts on a mission and cross-
component view. I, along with the deputy secretary, am personally 
engaged to provide the necessary leadership and direction to this 
process. I look forward to further discussing these ideas and 
strategies with this committee as we develop ways to refine our 
planning process and appropriation account structure in order to 
improve how the Department resources its missions.
    As part of a management reform agenda, I am also doing a top-to-
bottom review our of acquisition governance process--from how we 
develop our strategies, to the development of our requirements, to how 
we sustain our platforms, equipment, and people, and everything in 
between. Part of this will include the thoughtful, but necessary, 
consolidation of functions to provide the Department with the proper 
oversight, management, and responsibilities to carry out this task. 
This will allow DHS to more fully ensure the solutions we pursue are 
responsive to our strategy, technologically mature, and cost-effective. 
I look forward to sharing our ideas and strategies with this committee 
as we move forward in this area.
    In closing, the Department's fiscal year 2015 budget request 
recognizes our current fiscal realities and works within them. It is a 
responsible plan that will strengthen our Nation's security while 
allowing the Department to continue to achieve its core objectives. I 
thank the committee for inviting me to appear today. In the pursuit of 
our important mission, I pledge to this committee my total dedication 
and all the energy I possess. I look forward to working with you to 
meet our shared priorities.

    Chairman McCaul. I thank the Secretary. We appreciate your 
outreach to not only myself and the Ranking Member, but the 
entire committee.
    Before I ask a few budget items, I do want to turn to a 
topic that has come up more recently. That is the disappearance 
of the Malaysian flight.
    Transponders were apparently turned off. There are reports 
of two Iranians on board who had stolen passports. Can you tell 
us what you, sir, and your Department of Homeland Security are 
doing about this matter?
    Secretary Johnson. Chairman, the Malaysian government is in 
the lead on the investigation and search for the aircraft. As 
you know, we are not now in a position to make any conclusions 
at this time. I will say that when it comes to the reports 
about the stolen passports, I have asked, when it comes to our 
own security insofar as stolen passports are concerned--you 
know, where are we in the United States--and the assessment, 
which I share, is that when it comes to domestic flights, and 
when it comes to flights that leave the United States, flights 
to the United States, we have a good system in place for 
tracking stolen passports such that if someone attempted to use 
a stolen passport to travel in the United States or to the 
United States, that would be promptly detected. So, I think we 
are in a reasonably good place there.
    But in terms of the loss of this particular aircraft, we 
are not in a position to make any conclusions at this point.
    Chairman McCaul. So, any in-bound flights to the United 
States would have been cross-referenced with Interpol?
    Secretary Johnson. Yes, sir. That is my understanding. Yes, 
sir.
    Chairman McCaul. Okay. Okay.
    On to the budget items, one thing that I found, and 
realizing you are new to the job, the Quadrennial Homeland 
Security Review----
    Secretary Johnson. I realize that is only going to work for 
me so long.
    [Laughter.]
    Chairman McCaul. Probably not even for this hearing. The 
honeymoon may be over.
    But the review was supposed to be done in December 2013. 
Here we are in March. It seems to me that that is kind of 
putting the cart before the horse; that you need to have the 
benefit of that review and that strategic vision before you put 
forth a budget.
    I mean, am I missing something?
    Secretary Johnson. When it comes to the QHSR, as I think I 
mentioned to you in the past, we are--the statute that requires 
the QHSR also requires that we put it forth from the 
perspective of the entire Federal Government and the homeland 
security aspects of the entire Federal Government, not just the 
Department. So it is a coordinated effort, as are the other 
quadrennial reports.
    We expect to have it out very soon, perhaps within the next 
week. I have seen drafts and I also wanted to take some time 
with it myself to make sure I was comfortable with the 
document. After I came in in December, and some of it has my 
own personal work on it. So--but I expect you will have it very 
soon.
    I have seen it in draft form, and I believe it reflects my 
vision and it is consistent with the budget submission.
    Chairman McCaul. I appreciate your candor, saying you own 
it. But when this report does come out, is it possible that 
this budget could change pursuant to whatever the 
recommendations are from that report?
    Secretary Johnson. I would say that Members of Congress 
should carefully study the QHSR when it comes out. It reflects 
our best effort at where we see the Department is going, and be 
informed by that when you review our budget submission.
    Chairman McCaul. I think for me, one of the biggest 
concerns I have is I traveled to the JIATF, the Joint 
Intelligence Agency Task Force, in Florida, and was briefed on 
the situation in this hemisphere as it relates to our 
interdiction efforts. As you know, the Navy now has completely 
pulled out of this mission, leaving only the Coast Guard. Now 
with this budget request, we are now scaling back that Coast 
Guard mission as well, which I think puts this country in 
greater danger of drug trafficking coming in, violence, 
corruption.
    The Coast Guard commandant, Admiral Papp, recently 
testified that in his words, ``throwing up roadblocks'' in 
forcing the Coast Guard to cut budgets that prevent him from 
meeting his mission. This is right in our backyard. It is right 
in our backyard and it makes us very vulnerable, I think.
    As I pointed out, CBP has made--confiscated drugs, but not 
nearly on the scale that the Coast Guard and the Navy has on 
the high seas. So I hope you appreciate that concern that I 
have. I know what your budget states. I don't--I disagree with 
that number. But I hope maybe working forward that you and I 
can help them with their mission, which is so critically 
important.
    Secretary Johnson. May I respond?
    Chairman McCaul. Yes, sir.
    Secretary Johnson. I think recapitalization of the Coast 
Guard fleet is critical. I am told that it is the oldest fleet 
of vessels of any navy in the world. So we have got to press 
forward with recapitalization.
    In terms of narcotics interdiction, Coast Guard is 
important. CBP is important. HSI also does a terrific job at 
this. I see the daily reports of illegal narcotics that they 
are able to capture. They do a fantastic job. I have had 
conversations with General Jacoby, NORTHCOM, and General Kelly 
of SOUTHCOM about this very issue. The three of us have 
committed to work together on it.
    Chairman McCaul. Well, it is good to hear. I will just 
conclude by saying I think HSI and ICE did a phenomenal job 
just recently with the capture of ``El Chapo'' Guzman.
    So with that, the Chairman now recognizes the Ranking 
Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Welcome, as I said, Mr. Secretary.
    In your last appearance before the committee, Mr. 
Secretary, we had a conversation about Abu Dhabi. I wish it 
would go away, but it just kind of keeps cropping up.
    In the conversation, you and people who work for you said 
that this was a way of getting to Dubai, which is the highest 
point in that region of the country. Your people who work for 
you said this was the way to go. Well, some of us were 
concerned because there is no U.S. carrier flying in or out of 
Abu Dhabi.
    Now, we found out this Tuesday that Emirates Airlines, 
which is a state-owned airline, said they have no interest in 
pre-clearance at Dubai. Have you made an analysis of whether or 
not your people were duped into going to Abu Dhabi? Or did they 
go just because they offered to pay the money to come?
    Secretary Johnson. Congressman, as you and I discussed last 
time, I believe that pre-clearance at a number of airports, not 
just Abu Dhabi, is a homeland security imperative. I think that 
the more opportunities we have to push out our homeland 
security beyond our borders, in host governments that are 
willing to accommodate us, the better for our homeland 
security, the better for our aviation security into the United 
States.
    Abu Dhabi is a starting point, in my view. I don't have the 
same understanding when it comes to Dubai. I intend to have 
conversations with a number of governments overseas about 
establishing pre-clearance at their airports. My belief is that 
we have a very cooperative, constructive relationship with that 
government. I have had conversations with that government.
    Mr. Thompson. I appreciate it. What some of us are 
concerned is we went way down the list to get to Abu Dhabi, 
past a number of other airports. Some of us are just trying to 
figure out what is the objective criteria for selection. The 
only answer we got was that this is the way we can get to the 
airport we really want to get to. All of a sudden, they now say 
``We don't want you here.''
    So, I just think that we need a better process of selection 
than what some of us have seen. Plus, again, it puts a 
competitive disadvantage to American-owned carriers who don't 
fly out of that airport. So you talk to the good men and women 
who work for those carriers, they are very concerned that our 
Government decided to go there.
    With respect to CFATS, as you know, we are in the process 
of writing up an authorization, a piece of legislation. But in 
this legislation, we have omitted water facilities. That is a 
major, major vulnerability that everyone agrees to.
    Would you support legislation that eliminates this security 
gap for water facilities and other critical infrastructure?
    Secretary Johnson. Congressman, as I have indicated, I 
think that the CFATS legislation that has been proposed by 
Members of this committee is a real positive step forward. I 
support it. I have reviewed it. If there are proposals of the 
type that you just mentioned, I would be happy to consider them 
and work with you and your staff on that. Overall, it sounds 
like something that we ought to consider.
    Mr. Thompson. But----
    Secretary Johnson. I would like to work with you on that, 
sir.
    Mr. Thompson. Okay, and I look forward to it, because 
everybody we have talked to have indicated that water 
facilities and other critical infrastructure should be on that 
list, because they are vulnerable.
    I yield back, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Secretary Johnson, as you know, according to the Federal 
Register, our refugee policy affects both the budgets of the 
Department of Homeland Security and the State Department. 
Refugees, of course, are those who either apply from foreign 
countries or show up at our airports and claim for any number 
of reasons a well-founded fear of persecution back home. If 
they are granted refugee status, they receive taxpayer funds. 
They receive Government benefits and so forth. So it does have 
an impact on the budget.
    The President recently announced a change in our refugee 
policy. I believe he changed existing law, which now says no 
one with any ties to a terrorist organization can be admitted 
as a refugee. The President changed that. And now has said that 
those with supposedly insignificant material support for 
terrorist organizations can now be admitted.
    My question is this: For those individuals to be admitted, 
a couple of things have to happen. No. 1, they have to have 
undergone a background and security check. How are we going to 
conduct a background and security check in a foreign country, 
particularly a foreign country that might be a terrorist-
sponsoring nation, so that we know whether these individuals 
have serious ties or not serious ties to terrorist 
organizations?
    Secretary Johnson. The change that you refer to, 
Congressman, relates to those who may have provided very 
minimal levels of support to----
    Mr. Smith. Right. How are we going to conduct background 
checks that are required in the foreign countries where they 
are from?
    Secretary Johnson. Well, we are talking about people who 
provided support to tier-three organizations. So an 
organization like A.Q. is not a tier-three organization.
    Mr. Smith. But these refugees have sometimes only been here 
for a few days. Obviously, they are not going to have a record 
in this country. So we are not--we don't have any real way of 
checking their background in a foreign country. Is that 
correct?
    Secretary Johnson. The proposed change in regulation 
requires a very extensive background check.
    Mr. Smith. Is that only a background check that is going to 
occur within the United States where they may have only lived 
for a few days?
    Secretary Johnson. Well, that level of detail I would have 
to get back with you on. I know that there are a long list of 
things that the individual has to satisfy before he is given 
the status.
    Mr. Smith. Right. I am just saying to you I don't see how 
the background checks, since they can't be conducted in the 
foreign country, and since they really have not been here long 
enough to have any kind of a background to check amounts to 
anything but a--almost a ruse there.
    But another qualification is if these individuals have to 
fully disclose the nature and circumstance of any material 
support they provided to terrorist organizations. They have 
every incentive to lie. What makes you think they are going to 
suddenly come clean and admit it if they do have a strong tie 
to a terrorist organization? You are leaving it up to them, 
themselves, nobody else, to determine whether they come in as 
refugees and extended their ties to terrorist organizations.
    Secretary Johnson. The change is not an exemption by any 
means. The change in the rules still requires very extensive 
background check.
    Mr. Smith. I was quoting from the rules. You are leaving it 
up to those individuals to fully disclose the nature and 
circumstance of any material support they provided to the 
terrorist organization. How can you rely upon what they said?
    Secretary Johnson. What you just read is in addition to a 
very, very long list of other things that we have to satisfy 
ourselves concerning before----
    Mr. Smith. But if you are leaving that to individuals who 
have every incentive to lie, that is a reckless disregard for 
the American public's safety, in my judgment, to leave it up to 
them to tell us what kind of ties they may or may not have to 
organizations, as well as the background check. I don't see how 
you conduct that in any meaningful way. You are welcome to get 
back to me if you want, but that is--I am just reading from the 
regs themselves.
    My next question is this: Is the administration making 
record deportations or not?
    Secretary Johnson. Well, if you focus on those removals by 
ICE, the numbers are higher than they have been previously.
    Mr. Smith. Oh. Okay. Because the administration has been 
accused by a number of organizations and individuals as being 
the deporter-in-chief because they are making record 
deportations. So you are acknowledging at least by your 
standards and your account that they are making record 
deportations. Is that right?
    Secretary Johnson. The removals by ICE are higher than they 
have been previously. That is correct.
    Mr. Smith. Something that is higher--that tends to mean 
that is a record, does it not?
    Secretary Johnson. It is higher. However you would like to 
characterize it, the numbers are higher than they have been 
previously. That is correct.
    Mr. Smith. Okay. We will let common sense prevail there.
    Last question is this: When you appeared before us a few 
weeks ago, and we always appreciate your coming, I asked you 
about the tens of thousands of individuals who are being 
released from detention by the administration, criminal aliens, 
who then went on to commit thousands of serious crimes. I can 
list the crimes.
    They go from battery, rape, kidnaping, murder, assault, 
child molestation, child cruelty, lynching, torture, and so 
forth. Thousands of individuals have committed additional 
crimes who have been released by the administration.
    I mentioned to you that my data was to 2012 and I thought 
you were going to be able to get back to me and update that 
information and confirm it. I don't know if you had a chance to 
do that or if you can tell me now what your new data might 
show. Or do you have any data for me yet?
    Secretary Johnson. I will get that information to you 
promptly.
    Mr. Smith. Okay. Great. Particularly looking for 2013 how 
many people released by the administration who could have been 
detained and what crimes they committed. I thank you, Secretary 
Johnson, and yield back.
    Chairman McCaul. Chairman recognizes the gentlelady from 
California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. I appreciate it. I 
appreciate our Secretary being before us. I just have one 
question in particular. This is a very parochial question.
    Mr. Secretary, the sole commercial airport that we have in 
Orange County, California where I represent, has applied for 
U.S. Customs and Border Protection to be designated as a port 
of entry. In other words, we have international flights, if you 
will.
    As of now CBP's presence at John Wayne is under the user 
fee program, which requires that the airport cover the CBP's 
cost. As a consequence, the airport is paying approximately $2 
million a year to CBP and the costs continue to rise because we 
have a lot of people that like to go to Mexico and other 
places, obviously, from there.
    Under a port of entry designation CBP's costs would be 
covered under the Department's budget. So recently the airport 
was officially notified that its port of entry designation 
application was all set, everything was in order, et cetera, et 
cetera, but that processing it internally would take 24 months.
    In the mean time of course we have to charge the passengers 
because we have to pay to have CBP there et cetera, et cetera. 
So if everything is in line, why would the process take so 
long? What do we need to do to get the Department, if 
everything is in place to agree and to give us--and to start 
taking up the costs on that?
    Secretary Johnson. Well, if it is simply a matter of a 
review and an evaluation of something it is hard for me sitting 
here right now to understand why it should take 24 months. If 
it also involves construction of certain infrastructure or 
added security or something of that nature, I could understand 
why it might. But sitting here right now it is difficult----
    Ms. Sanchez. Remember your people are already there. We are 
just paying for them there. So the infrastructure must be 
correct if we are allowing it to happen.
    Secretary Johnson. Right. There are about 5 people sitting 
right behind me right now taking notes. We are noting the 
Secretary is concerned that it takes 24 months to get this 
done.
    Ms. Sanchez. Great. Thank you so much. I look forward to a 
response once you look into it.
    Secretary Johnson. Understood.
    Ms. Sanchez. Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. Chairman recognizes the former Chairman, 
Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Secretary, it is a privilege to have you here today. I want 
to thank you for the dedication you have shown to the job in 
the only 3 months you have been on the job. So thank you very 
much for that.
    Question I have, as I mentioned to you before, is on the 
Securing the Cities program, which right now it is in New York 
City, it is in Los Angeles and I believe a third city was going 
to be selected in the near future. It had been funded at $22 
million a year. This is I believe a very vital program because 
it has to stop a--basically a nuclear, a dirty bomb attack in 
cities by having detection devices on all the main roads, 
highways, bridges, and tunnels leading into the cities. I think 
there is a philosophical disagreement at the start.
    You know the DNDO would rather have that ultimately be 
phased out and have it administered by the cities. I would say 
because this is clearly a terrorist attack, which I think 
should be a responsibility of the Federal Government, it goes 
beyond local crime or local breakdown of law and order. It 
clearly would be a terrorist attack, which I think should be 
funded by the Federal Government, specifically DNDO.
    But even if it was going to be a weaning off or a lessening 
of reliance, to cut it by almost 50 percent in 1 year at a time 
when you now have two cities and you are going to a third city, 
to me it seems like an unreasonable cut and it would have I 
think a disproportionate impact on what I think would be a very 
vital program.
    Secretary Johnson. Congressman, my understanding is that 
despite the reduction in that specific program we are in a 
position to leverage other programs to make sure that all the 
cities including New York are adequately funded through a 
number of different grant programs.
    As you also know, New York is a city that I take very 
personally. I am a New Yorker. I was there on 9/11. My second 
day on the job I went back to Ground Zero. Before I took this 
job my daily commute was either the Lincoln Tunnel or the 
railroad tunnel underneath the Hudson River through either Penn 
Station or Port Authority Bus Terminal.
    I identify with New York's security needs and will commit 
to you that as long as I am Secretary New York will be 
adequately funded in this regard.
    Mr. King. Thank you, Mr. Secretary. I appreciate that.
    I yield back, Mr. Chairman.
    Chairman McCaul. Chairman recognizes the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much again, Mr. Secretary, 
for your presence here and certainly your diligence. I think 
you can find that there will probably be a great opportunity 
for collaboration on this committee. We work very well 
together.
    But there are stark differences. In the neighborhood we 
sometimes say you are cutting it to the bone. Whenever we hear 
individuals speak about more deportations we literally have 
nightmares about dragging people out of their homes who happen 
to be U.S. citizens, but they happen to have Latino names.
    I don't know how much more you can brag about deportations 
when statistics will show that fewer people are even coming 
across the border. I think our focus should be on people who 
are here to do us harm. I would like my line of questioning to 
go in that direction.
    Frankly, if we could work together on comprehensive 
immigration reform, I think we would answer all of our 
colleagues' issues about deportation.
    But I do want to associate myself with Chairman McCaul's 
comments on the missing, very tragic and mysterious missing 
airline. Two points I want to make.
    I have written legislation over the years. It is still 
pending on the utilization of air marshals. I frankly believe 
they are not utilized the way they should and I am trying to 
pinpoint the budget, but I will make that another inquiry. I 
don't want to--I am interested in the increased use of air 
marshals on international and domestic flights.
    The second point is, is that there are only four countries 
that actually utilize the data system on passports on 
individuals that board planes, and the United States is 
certainly one of them. I believe it is important for the 
Department of Homeland Security and the administration to 
engage internationally to ramp that number up.
    Obviously those individuals are on the airline because 
there was no match. They happen not to match a watch list, but 
they were not checked at all and I think that is a very 
important point.
    Let me quickly go to the question of detention facilities 
that we discussed earlier. Unfortunately there is a provision 
that requires ICE to have a quota of detention beds. In that it 
rejects what is now a new and recognized phenomenon of 
alternative detention for civil and nonviolent individuals.
    I noticed that in the 2015 budget $1.3 billion is for 
detention beds, but only $94.1 million is for alternatives to 
detention. These are individuals, families, these are 
noncriminal and I would ask that you respond to why there is 
such a little bit of money on that, as my time goes.
    Oh, I would like to see that number ramped up versus the 
large number for detention beds.
    Secretary Johnson. The fiscal year 2014 number, as enacted 
by Congress, requires us to maintain a capacity for 34,000 
beds. This budget submission in 2015 is based on our assessment 
that we need 30,600 beds at any one time in the course of 
fiscal year 2015 to detain those we regard as the most serious 
threats.
    In addition, we have asked for $94 million for our 
alternatives to detention program. We think that is a valuable 
program. We think it is a good program. We think we have the 
right balance there.
    Ms. Jackson Lee. Could I ask you to just go back and 
analyze that? It seems a very high number. The question is 
whether or not there is that number of individuals.
    I would like to also ask across the board whether there can 
be an analysis. I notice that we are adding an additional 
number of CBP officers. I thank you for that. I don't believe 
that Homeland Security should be about economic opportunities. 
But I believe that the jobs are very important.
    What I would ask is that we look as well at the salary 
range of our ICE and CBP officers, all of our front-line 
officers for potential increase. I know that there have been 
some increases, but I frankly believe that they are short on 
dollars.
    But I would like to ask this question about our training 
CBP officers. It looks as if there was $5.5 million that they 
have gained through seizures. But my question is: Have we 
funded staff training for human trafficking? All of our, across 
the board, whether it is TSA, TSO Officers, ICE, and CBP, is a 
budget line item for increased training or in the training 
dollars would we include the ability to perceive potential 
human traffickers and their--those in custody of them?
    Secretary Johnson. I am sure that there is. Whether there 
is a specific line item for that I couldn't tell you. But I can 
state with pretty good confidence that part of the training 
involves training in matters of human trafficking.
    Ms. Jackson Lee. If you could look at that for me I would 
greatly appreciate it.
    Finally, let me just say that I appreciate you dealing with 
the Coast Guard fleet. I would also like to see an increase in 
personnel in the Coast Guard. The range of responsibilities 
that they are engaged in, both in terms of fighting terrorism 
but also in protecting the Nation's waterways, but particularly 
our ports, which are targets. I would hope we would have a 
discussion further on that as we go forward in the budgeting 
process.
    I thank you and I yield back.
    Chairman McCaul. Thank you. The Chairman recognizes the 
gentleman from Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here. I appreciate your 
service to our country and look forward to getting to know you 
better and work with you.
    Secretary Johnson. Thank you.
    Mr. Rogers. This is a very vital Department to our country. 
I know you take that seriously.
    I want to ask you to think back to after the Boston 
bombing. Within the first 24 hours after that bombing the thing 
that most Americans saw on television when they were watching 
that event being recounted was what a great job the five 
hospitals did in taking those mass casualties in and the first 
responders and how different it was from 9/11 when we weren't 
as prepared. In fact it was pretty flawless.
    The thing I took most pride in, in that, is that we as a 
country recognized we need to be prepared for those kinds of 
mass casualties and to deal with it. But that we had learned 
from 9/11 to get prepared. We were able to perform like we did 
in Boston.
    I took particular pride in the fact that 8,000 of those 
first responders in those five hospitals in the police 
department and the fire departments were trained at the Center 
for Domestic Preparedness. So it was by no accident that we 
performed so well, our first responders did.
    For that reason I want to ask, are you familiar with the 
Center for Domestic Preparedness? Are you committed to its 
continued role in FEMA to make sure our first responders are 
ready for the unlikely, hopefully, event of another attack on 
our country?
    Secretary Johnson. Congressman, as I have said several 
times I think given how the terrorist threat is evolving 
against our country, working with State and local governments, 
first responders, is becoming more and more important.
    You referred to Boston. I have seen vivid illustrations of 
in the first responses the equipment, the training that was 
brought to bear that day. A lot of it was funded by FEMA 
grants----
    Mr. Rogers. Right.
    Secretary Johnson [continuing]. Contributions made by the 
Federal Government, as you just pointed out. So I am definitely 
a supporter of the overall mission, sir.
    Mr. Rogers. Well, I know Congress always ignores 
Presidential budgets and we are going to ignore this one. But 
it does give us some insight into your thinking and your 
priorities. One of the things I noticed is that you all call 
for a realignment of the grant process. I am really curious as 
to what is your intent. What do you mean by that with the 
realignment?
    Secretary Johnson. The consolidation proposal reflects our 
considered view that if there is a consolidation, and many 
people take issue with this. But it is our considered view that 
with consolidation there are increased efficiencies in the 
grant programs such that more dollars reach the intended 
beneficiary, less overhead, more efficiency and oversight.
    So the consolidation proposal is a reflection of that. It 
is intended to get more dollars to the intended beneficiaries.
    Mr. Rogers. Is there a working document that already 
outlines how that restructuring will manifest itself?
    Secretary Johnson. I can--if there is I can get you that, 
sir.
    Mr. Rogers. I would appreciate that.
    I would also like to invite you to come to the Center for 
Domestic Preparedness. It is located on a former army base. One 
of the things that we have at our disposal there, aside from 
live basic training, the only place where you can get that in 
this country, is a former hospital that has been retooled to 
train hospital personnel, both ER personnel, administrators, 
for mass casualties.
    Just it is very high-tech and I think you would, as 
Secretary Napolitano did, you would find it very worth your 
time to come down and take a look at it. So I invite you to 
come down and do that. I hope you will.
    With that I yield back.
    Chairman McCaul. Chairman recognizes the gentleman from 
Texas, Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to join my colleagues in 
commending you on these first few months in office. I think the 
initiatives you have undertaken to bring greater transparency 
to the organization are welcome publishing the use-of-force 
guidelines initiatives to make sure that our agents who are 
serving on the front lines are sensitive to the communities in 
which they serve, sensitive to how we can avoid unnecessary 
violence and death along the border.
    I think those are important first steps. I hope to build on 
that with other Members with a bill that we will be introducing 
shortly to try to provide greater accountability, oversight, 
and responsiveness on the border, and so we look forward to 
getting your feedback on this legislation, and hopefully 
ultimately your support.
    Yesterday I had the privilege of attending a Border and 
Maritime Security Subcommittee hearing chaired by Mrs. Miller 
that looked at the Arizona Border Surveillance Technology Plan. 
This is, we learned yesterday, a plan that will cost the U.S. 
taxpayer between $500 million to $700 million over the next 10 
years.
    That will have a series of fixed towers, mobile sensors, 
infrared camera technology, and surveillance technology. Very 
similar to the plan that was initiated with SBInet, the 
billion-dollar boondoggle that after many years and hundreds of 
millions, in fact a billion dollars spent and wasted, delivered 
very close to zero in terms of value to the taxpayer.
    We heard from the GAO yesterday that they have serious 
concerns about the way that CBP is proceeding with this Arizona 
Border Surveillance Technology Plan, including no integrated 
master schedule, incomplete testing, lack of performance 
measures, and questions about the life-cycle costs.
    Our Ranking Member on the committee, Ms. Jackson Lee also 
brought up the issue that we are seeing a surge in activity and 
threats in south Texas right now. So I also question the wisdom 
of putting a fixed system in place when the threats that we 
face and the conditions are unpredictable, mobile, and may need 
greater mobility and creativity from us in our thinking.
    So I would like you to--I personally think that we should 
stop this program, take a break and make sure that we resolve 
the discrepancies between the GAO findings, recommendations, 
and the way CBP is proceeding. But at a minimum I would love 
for you to review those GAO findings and assure yourself and 
then those of us and the American taxpayer that this is a 
warranted use of precious resources at a time of record debts 
and deficits.
    Secretary Johnson. I think SBInet is definitely a learning 
experience. It is a learning experience for DHS. I also believe 
that surveillance technology on the Southwest Border in 
particular is critical. Investments in surveillance technology 
are critical. It is what the folks on the front line tell me 
they needed.
    I just wanted to make one more comment about accountability 
on the border. Since the last time I was here we publicized the 
use-of-force guidelines.
    Additionally, and I give the chief of the Border Patrol a 
lot of credit for this. He put out guidance last week to 
address specifically vehicles and rock throwing. That was 
something the leadership of the Border Patrol undertook to do 
to clarify. They did so.
    One of the reasons that I counted on him to do that is 
because most of us in Washington have no idea how to patrol the 
border. What happens, what the encounters are like on the 
border. So I think we should all be sensitive to trying to 
legislate or mandate how the Border Patrol does their job every 
day.
    We got to make sure that they are appropriately protected. 
I am glad the chief took the step he did. I fully support it.
    Mr. O'Rourke. Mr. Secretary, I was also glad to hear you 
talk about not just the threats that we see at the border in 
your opening statement, but also the requirement to facilitate 
legitimate trade and legitimate flow of people and goods 
through our ports of entry, which are vitally important to 
economic growth and job creation in this country.
    El Paso is one of five cities recently that stepped up 
under a pilot program to fund CBP officer hours at our ports of 
entry so that we can get more people, more trade, more 
shoppers, and more goods into our economy and create more jobs.
    I want your assurance that as you add additional CBP 
Officers to these ports, those cities like El Paso, one of the 
poorest cities in America, that stepped up to fund the Federal 
Government's responsibility are not penalized. That we 
supplement the efforts there and not supplant them.
    In other words, because El Paso has funded these additional 
officers you might send officers somewhere else. I want you to 
send the officers that would have come there anyhow, even if El 
Paso had not paid for that additional overtime and additional 
man hours there.
    Secretary Johnson. I think that is a fair point.
    Mr. O'Rourke. Thank you, sir.
    Mr. Chairman, I yield back.
    Chairman McCaul. Dr. Broun from Georgia.
    Mr. Broun. Thank you, Mr. Chairman.
    Secretary Johnson, the TSA spends more than $7 billion a 
year. Yet I cannot find one single instance that the agency has 
stopped a terrorist attack. Instead, what I find is story after 
story of a bloated bureaucracy that uses over-the-top tactics 
to violate Americans' civil rights and liberties.
    Some particularly disturbing examples include past 
complaints of TSA workers in San Diego administering an 
invasive pat-down to a 95-year-old, wheelchair-bound Air Force 
veteran and his 85-year-old female companion. During which time 
they allegedly stole $300 in cash from the Air Force veteran's 
possessions.
    A TSA agent in Kauai, Hawaii forcing a nursing mother to 
openly demonstrate her breast milk pump in a public restroom to 
prove that it was real. Just 1 month ago TSA workers were 
accused of humiliating a cancer victim who was wearing an adult 
incontinence pad.
    Beyond these accounts, other reports cast serious doubts 
over the TSA's effectiveness in their mission. For instance, 
coverage by ABC in 2011 detailed a 70 percent failure rate, a 
70 percent failure rate on gun and knife detection. Failure to 
detect a simulated explosive on an undercover agent was widely 
reported in March of last year.
    A 2013 GAO report showed that the billion-dollar behavioral 
detection program is no better than just random chance. Another 
GAO report from last year detailed an outrageous 26 percent 
increase in misconduct by TSA employees between 2010 and 2012, 
a quarter of which involved screening and security failures, 
including sleeping on the job.
    In my opinion we owe the American taxpayers better than to 
see their money demonstrably wasted in the tax, and the 
American traveler better protection than the proven ineffective 
techniques and technologies employed by the TSA.
    Taking all of this into account, I have several questions. 
Please answer them quickly because I have several.
    Do you believe that the cost of this program is still 
completely justified?
    Secretary Johnson. Yes, sir, I do.
    Mr. Broun. Okay. Do you believe that the--let's say are you 
open to expanding the privatization pilot program that has 
proven to be very successful in 14 different airports around 
the country?
    Secretary Johnson. I am committed to considering whatever 
is an efficient and effective use of taxpayer dollars that 
enhances aviation security.
    Mr. Broun. For those privatization--I apologize cutting you 
off, Secretary, but I have got, like I said, a lot of 
questions. Those have proven very effective. TSA has held up 
the privatization program.
    More broadly, considering that airports have the greatest 
incentive to protect their planes and passengers, it would not 
be as susceptible to these same lackadaisical security failures 
and ineffective decision making that seems to plague the TSA. 
Would you be open to full privatization of the program?
    Secretary Johnson. Of the entire TSA mission?
    Mr. Broun. Yes, sir.
    Secretary Johnson. No, I would not be.
    Mr. Broun. Well, I would like to talk with you about that 
because I think it would be much more effective to totally 
privatize it. I think it would be a whole lot safer for the 
American traveler and better for the taxpayer too.
    I am going to go back to a question asked by my good friend 
from Mississippi because I believe this idea of the 
preclearance in Abu Dhabi is a bad policy. I hope that you and 
I can discuss that because I am very, very concerned about 
that.
    I don't think it is good policy. I would like your 
assurance that we can work on this because I would like to see 
that policy change to something else happen if we could have 
that discussion.
    Secretary Johnson. I am happy to have that discussion with 
you.
    Mr. Broun. Very good.
    Refugee policy and relocation, in Georgia we are having a 
tremendous problem with the relocation. I have tremendous 
questions going back to what the Chairman was asking you about 
the--oh no, I am sorry, as Mr. Smith was asking you about the 
vetting of these people.
    We are getting a tremendous number of refugees into my home 
State of Georgia. It is causing a tremendous concern within 
Georgians. A lot of them are coming within the Atlanta area. I 
believe pose a very real security threat to the people in 
Atlanta and the people in Georgia and the people in this 
Nation. So, I would like to work with you about that too.
    The final question is on the 287(g) program. What is your 
long-term thoughts about that program?
    Secretary Johnson. My long-term thought is we need to do a 
better job of working with State and local law enforcement in 
their support for our Homeland Security mission. In various 
places in the country we don't have such a good relationship.
    I--through that kind of program, and so working with State 
and local law enforcement through grant programs and other 
programs of a similar nature I think is key given how the 
Homeland Security mission is evolving.
    Mr. Broun. I would like to see that continue.
    Mr. Chairman, I yield back. Thank you, sir.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from California, Mr. Swalwell.
    Mr. Swalwell. Thank you, Mr. Chairman.
    Mr. Secretary, to go back to what the Chairman alluded to 
with the Malaysia Airlines disappearance, and while we do not 
know what happened to that plane, we do know that two 
passengers boarded the flight using stolen passports. It was 
encouraging to hear that the United States checks travelers 
inbound and outbound to the United States and within the United 
States against the stolen and lost passenger database that 
Interpol has.
    What concerns me though is that last year over 1 billion 
passengers outside the United States were able to travel 
without having their passports checked against that database. 
So I have sent a letter along with my colleagues on this 
committee, Mr. Hudson, Mrs. Miller, and Ms. Jackson Lee, asking 
first for reassurances on what you said about what is going on 
in and out of the United States, but second whether there is 
leverage or negotiations going on with these countries, 
including what I understand to be border countries of the 
United States that are not using or checking against the 
Interpol database.
    Secretary Johnson. I think it is definitely something we 
should look at, sir.
    Mr. Swalwell. Do you believe we have leverage or have 
abilities to work with these countries to implement the 
technological capabilities they will need to check against 
these databases?
    Secretary Johnson. I intend to look at that question.
    Mr. Swalwell. Okay. Does it concern you at all that right 
now that perhaps some of these border countries are not 
checking against the database?
    Secretary Johnson. It is a situation that we are looking 
at. With regard to the flight, obviously as I said earlier, we 
are not in a position to make any conclusions. But stolen 
passports is a priority item.
    Mr. Swalwell. Thank you, Mr. Secretary. With regards to 
FEMA, it currently administers 18 separate grant programs to 
help State and local governments prepare for and respond to 
terrorist events. The administration recently has, and again 
has proposed that these programs be consolidated into one large 
grant program.
    Congress has rejected this attempt in the past, and it has 
been opposed by outside nonprofit organizations as well as law 
enforcement agencies and Members of both parties. I understand 
why the interest in consolidation exists in that it could give 
the Department more flexibility. But the experience is that 
when you consolidate that oftentimes important programs are 
left out. I will give you an example.
    We, back home in the San Francisco Bay Area, under the 
Transit Security Grant Program were able to secure $13 million 
to harden the Transbay Tube that connects Oakland to San 
Francisco, which over 100,000 people take every day--or move 
through.
    Our concern and my concern is that if we consolidate this, 
the Transit Security Grant and other important grants may not 
receive the funding or the attention that they may receive. I 
was wondering if you would be open or remain open to keeping 
these individual grant programs so that that doesn't occur.
    Secretary Johnson. Well, the administration proposal is to 
consolidate a number of them, but there are also others that 
are kept discrete and aside. Our assessment is that you enhance 
efficiency, you enhance oversight if you consolidate these 
grant programs.
    Mr. Swalwell. Going back to that, we also are hopeful and 
would like to invite you out this fall. We have Urban Shield. 
We were the first Urban Shield to use UASI grants in the 
country in the San Francisco Bay Area under Alameda County 
Sheriff Greg Ahern. So that exercise has taken off across the 
country. It was cited by the Boston police commissioner that 
his police attended Alameda County's Urban Shield program, and 
that that had prepared them to respond to the marathon bombing. 
So we will be having that this coming fall. You have an 
invitation from me and to see those funds at use.
    With that, Mr. Chairman, I yield the balance of my time.
    Chairman McCaul. The gentleman yields back.
    Gentleman from Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    Secretary Johnson, the President's fiscal year 2015 budget 
zeroes out funding for the State Criminal Alien Assistance 
Program. Now that is the program, as you know, that reimburses 
State and local governments for the cost of incarcerating 
unauthorized immigrants.
    I am very troubled by this because already the program only 
reimburses a very small amount to the local governments for the 
actual cost of housing illegal immigrants. Just less than 2 
weeks ago in our local newspaper on the front page there 
happens to be a story that the prison illegals costing the 
county of Luzerne $1.7 million.
    I am quoting from the paper that the county received only 
$130,000 in Federal funding to offset the costs. That is $1.7 
million. That won't educate one child. It won't fix one 
pothole. It won't pick up one person's trash. Now if the 
President gets his way, the local taxpayers will foot the 
entire bill.
    Back in my district already the people in my district are 
already struggling to figure out how they are going to pay 
their rent, how they are going to pay their mortgage, how they 
are going to educate their children. We want the local 
taxpayers to pay the cost.
    This is a problem that was caused by the Federal 
Government. It was caused by the Federal Government by not 
securing our borders. It was caused by the Federal Government 
by not enforcing our immigration laws. Now we expect the local 
taxpayers to pay for it. How can you justify passing this onto 
the local taxpayers?
    Secretary Johnson. Congressman, we have dedicated a record 
number of resources to securing our borders to prevent illegal 
border crossings. This budget submission reflects tough choices 
and----
    Mr. Barletta. Well, my question is how do we justify 
putting the cost on the local taxpayer? When cities like mine, 
when I was mayor, and wanted to defend ourselves because the 
Federal Government wasn't doing its job, or a State like 
Arizona who also wanted to do something because the Federal 
Government wasn't doing its job, the Federal Government turns 
around and sues them?
    So how do we justify asking the local taxpayer to pay for a 
problem that was caused by the Federal Government?
    Secretary Johnson. I believe that your constituents, the 
people of the city that you were mayor of, we will--if a 
particular program is--the funding for it is decreased because 
of difficult choices----
    Mr. Barletta. Well, it wasn't decreased. It was zeroed out. 
Basically telling our local taxpayers all around the country 
that you will pay for the cost of incarcerating illegal 
immigrants.
    Secretary Johnson. I believe that if that occurs we can 
leverage other programs to support your--the public safety of 
your constituents, sir.
    Mr. Barletta. So am I hearing that if the President's 
budget is passed, that there will be another program that will 
pay for the cost or help reimburse the cost?
    Secretary Johnson. Something as important as public safety, 
if we are zeroing out a particular program we ought to be able 
to leverage other programs to compensate for that.
    Mr. Barletta. You will make that recommendation to the 
President?
    Secretary Johnson. I believe that is reflected in this 
budget submission, sir.
    Mr. Barletta. Could you tell me what program offsets this 
cost to the local government?
    Secretary Johnson. I can get back to you more 
specifically----
    Mr. Barletta. So there is something in this budget that 
would offset the cost of incarcerating? I just want to make 
sure I have this right.
    Secretary Johnson. Like I said, if we make a choice to 
defund a program because of the fiscal constraints we have and 
the----
    Mr. Barletta. Let me tell you----
    Secretary Johnson [continuing]. We have----
    Mr. Barletta [continuing]. I know the fiscal constraints 
here. But I also know the fiscal constraints of local 
governments, too. They are bankrupt. The people are also on the 
verge of bankruptcy as well. So I don't know where they are 
going to get the money.
    But I just want to make sure because my time is running 
out. There is another program in the President's budget that 
will offset the cost of incarcerating illegal immigrants?
    Secretary Johnson. We defund something we hope to leverage 
it----
    Mr. Barletta. So hope is different than there is. Is there 
something in the budget that actually does that?
    I just want to be able to go home and tell the people back 
home that there is something else that will reimburse the 
minimal amount that the Federal Government was already paying.
    Secretary Johnson. On matters of public safety, we will 
leverage it one way or another. My job is to ensure the 
homeland security of your constituents and the constituents of 
everybody else on this committee. If we can't do it one way, we 
are going to find a way to do it another.
    Mr. Barletta. I will tell them----
    Secretary Johnson. It is my job, sir.
    Mr. Barletta. Thank you. Thank you. Yield back.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from Nevada, Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here again.
    Last year airports around the country raised serious 
concerns about potential security issues and significant costs 
associated with the TSA's unfunded mandate that they start 
providing staff to monitor the safety and security of exit 
lanes at each terminal. After we went back and forth and passed 
some legislation here, it appears that TSA is still continuing 
to try to push this responsibility onto the airports.
    Now based on what I see in the fiscal year 2015 budget it 
includes funds for TSA staff to monitor these exit lanes at 
those airports where the agency provides the function. But are 
you aware that the TSA, despite your budget recommendation, is 
still trying to employ strategies to get out of their duty to 
continue monitoring these exit lanes?
    Secretary Johnson. I know that our budget submission for 
fiscal year 2015 funds exit lane security in places I believe 
where we currently do that.
    Mr. Horsford. Right, now one of the----
    Secretary Johnson. In other words, status quo. That is my 
understanding.
    Mr. Horsford. Right, now one concern that has been brought 
to me is TSA's creative interpretation of the law and the fact 
that they are saying that any time that there is a 
reconfiguration of exit lanes that they can then shift that 
responsibility to the airports going forward. You know, for 
those of us that travel virtually every week we know that a lot 
of the airports have to make adjustments based on traffic flow 
and other things.
    So I would just ask that you look at that, because it is 
Congress' intent that the TSA continue its function and that 
the budget that you have presented funds that responsibility. 
So I would respectfully ask that you review that.
    I would also like to bring up, Mr. Chairman, to the 
Secretary that according to the travel industry and the bureau 
of economic analysis international travel is particularly 
important to the U.S. economy as overseas or long-haul 
travelers spend on average about $4,000 per visit.
    Now, one of the areas that we are seeing is significant 
staff shortages within the CBP at airports that cause lengthy 
and persistent delays for those entering the country. Now 
efforts are underway to bolster the existing bio-graphic air 
entry and exit program for foreign travelers with the biometric 
program.
    This year, your budget reflects 2,000 additional officers, 
and the fiscal year 2014 budget includes a proposal for 2,000 
more officers. So what is the plan to address the CBP staffing 
shortages to try to address this shortfall?
    Secretary Johnson. Part of the reason we requested 2,000 
additional CBP officers was to deal with wait times at 
airports, and to facilitate lawful travel. So if we receive the 
funding for the additional 2,000 we will make an allocation of 
those additional officers at ports of entry across the country, 
and wait times, I am sure, will be a consideration.
    Mr. Horsford. Will there also be consideration given to any 
planned biometric air exit program that involves airport 
operators and airlines as stakeholders to ensure that there are 
not negative impacts to the implementation of those new 
technologies?
    Secretary Johnson. That sounds like something that ought to 
be a consideration.
    Mr. Horsford. Thank you.
    Finally, Mr. Chairman, we have also learned after the wake 
of the tragic shooting at the Los Angeles International Airport 
a few months ago that law enforcement officers play a key and 
vital role in supporting TSA screening operations.
    What steps are being taken now or are in this budget 
proposal to ensure that airports are reimbursed for the law 
enforcement services that they already provide and will need to 
provide in the future?
    Secretary Johnson. The security at airports, like LAX for 
example, is currently under review. I look forward to the 
results of that review. I have been to various airports and 
talked directly to airport officials about security at 
airports. It is something I am concerned about, because a lot 
of men and women at DHS work at airports.
    So I am waiting for the results of our review and your 
question is something that I will consider at the time.
    Mr. Horsford. Thank you, Mr. Chairman. Yield back.
    Chairman McCaul. If I can just add, this committee will be 
holding a field hearing at LAX Airport the latter part of this 
month.
    So the Chairman now recognizes Mr. Duncan, from South 
Carolina.
    Mr. Duncan. I thank the Chairman.
    Thank you, Secretary, for being here. I appreciated your 
comments and your statement about acquisition reform. I am 
happy to report that we dropped a bill today; it is bipartisan. 
I want to thank the gentleman from Arizona for being a primary 
sponsor in H.R. 4228, which deals with acquisition reform.
    I appreciate all the other co-sponsors. I hope the rest of 
the committee will take a look at that.
    So I know you are with me on acquisition reform, that we 
need to do a few things. So how does the budget that we are 
talking about today strengthen the acquisition framework and 
capabilities of its acquisition personnel?
    What do you envision--when you say you are with us on 
acquisition reform, what do you envision some of the changes 
there?
    Secretary Johnson. What I envision is a process that is--
that focuses on the overall mission of the Department, where we 
are more strategic about our acquisitions. We start at an early 
phase to identify needs, to identify strategies. We inform the 
components with the overall strategy as they develop their 
acquisition needs.
    I think there is some learning that can be done from the 
Department of Defense experience in this regard, though DoD is 
different in many respects from DHS. But I think that if we 
focus early on on the overall mission, the overall strategy, 
the overall plan for resources, that leads to greater 
efficiencies.
    I am also interested in assessing your bill on acquisition 
reform. I am very interested in making improvements for the 
Department in that regard.
    Mr. Duncan. Let me just say the Department was involved and 
we incorporated a good bit of the language that they requested 
on it. So it has been a work in progress. I do appreciate that.
    Secretary Johnson. Thank you.
    Mr. Duncan. I would hope that the Department would include 
some private-sector best practices. I realize the public sector 
and private sector have some differences with regard to 
acquisition and budgets.
    But there are a lot of good private-sector best-management 
practices that could be implemented. That includes an 
enforcement of the Departmental policies. We have had numerous 
hearings on this issue. One thing that we notice is that the 
acquisition policies weren't always followed.
    When they weren't followed, there was no repercussions and 
that sort of thing. So do you see a policy change with regard 
to how the managers actually implement the policies and what 
happens if they don't?
    Secretary Johnson. Let me answer your question this way. I 
have spent most of my professional career in the private 
sector. As part of my daily effort to fill the vacancies in the 
leadership of this Department, I am recruiting people from the 
private sector with private-sector management experience to 
bring to bear some of the very same experiences that you just 
referred to.
    I think that there is a lot we can learn in the Department 
from private-sector experience, whether it is crafting a budget 
or an acquisition process. So I hope to bring some very 
talented people from the private sector in to have the approach 
that you have identified, sir.
    Mr. Duncan. Okay. Well, as I said in the first meeting you 
were here, you have quite a job, with all the different 
components, the different things that you are tasked with. I do 
agree that we have got to address as appropriators the Coast 
Guard fleet, and what we do there.
    With regard to acquisition, you know, we are talking about 
being good stewards of taxpayer dollars and best management 
practices from the private sector, you know, I would be remiss 
if I didn't mention St. Elizabeths, and the fact that I think 
the Chairman mentioned it, you know, the cost overrun, the 
delays that are going to take it to a 21-year project.
    Are we re-evaluating St. Elizabeths? Are you willing to 
agree to drop back and punt maybe on some of those issues to 
save taxpayer dollars and to keep this thing from turning into 
a true boondoggle?
    Secretary Johnson. In our current budget submission, we 
have asked for $78 million to complete the main building at St. 
Elizabeths, which is intended to be the DHS headquarters. I do 
believe that DHS needs a new headquarters. We have been working 
out of the same building that was always intended to be 
temporary since 2003.
    I can tell you from having worked in other Government 
buildings, including the Pentagon, that the headquarters 
function is not doing as good a job as it could if it were in a 
newer facility.
    There are lots of things as the Secretary of Homeland 
Secretary that I would expect to be able to do by way of having 
Classified communications, Classified conversations, and so 
forth, that I can't do because we are in the temporary facility 
that we are in.
    I do believe that once we get this last piece done, that is 
a point at which we should assess where we go in the future 
with the overall project. I am sensitive to costs growing as 
the project takes longer.
    But we have requested funding for the main building. I 
would like to see that get done. At that point, I want to 
assess where we go with the future of the project.
    Mr. Duncan. Well, I am encouraged by your comments. I hope 
that as we evaluate St. Elizabeths, we will evaluate some of 
the spending like the hardest wood in the world purchased for 
the decking at the Coast Guard facility or rainwater flush 
toilets that are, in my opinion, a waste of taxpayer dollars.
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. Let me also commend Mr. Duncan and Mr. 
Barber for your hard work on the acquisition bill. It may not 
be the sexiest issue that we deal with, but it is a very, very 
important issue for the long-term mission of the Department. I 
look forward to working with you on that, sir.
    Ms. Gabbard, from Hawaii is recognized.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Welcome back, Mr. Secretary. I would like to first ask 
about the increase on either taxes or fees that have been 
tacked on to airline travel. You have seen my legislation 
previously that relates specifically to the TSA fee hikes.
    But just overall I want to express a concern. Obviously we 
are very familiar with the tourism-based economy that relies 
heavily on air traffic, as there are other cities and States in 
the country that similarly rely on this travel.
    Wanting to make sure that we are taking great care as we 
look at these potential tax and fee hikes, and how they are 
affecting our economy as a whole, specifically with the 
transportation security fee with the 40-cent increase in the 
President's budget for fiscal year 2015, generating an 
estimated $195 million.
    I am curious because the budget for TSA is decreased by $59 
million. The TSO funding is reduced by $100 million. So I am 
wondering with the increase in this fee, what part of it is 
going towards increasing efficiency, waiting times, et cetera, 
at our T.S. checkpoints?
    Secretary Johnson. Well, part of our requested funding is 
for TSA PreCheck, which adds to efficiencies, leads to 
reductions in wait times getting on airplanes. TSA PreCheck is, 
in my view, an enhancement of security.
    It is also something that is--it promotes a better and more 
efficient use of taxpayer dollars. The fee increase that you 
mentioned is a 40-cent fee increase. The fee was increased last 
year by double after not having been increased for a number of 
years.
    In my view, the fee increase is something that reflects a 
view that those that use aviation should share some of the 
costs. Those of us who use it more often should share more of 
the costs.
    Now I understand how that could have an adverse impact on 
people who live on an island and therefore depend more on 
aviation to get certain basic places where others of us could 
take the train or drive.
    Ms. Gabbard. Right, yes.
    Secretary Johnson. So I am sensitive to that and want to 
think about that.
    Ms. Gabbard. Well, I look forward to working with you on 
either finding an avenue where we can put either a cap or an 
exemption in place for these fees that disproportionately 
affect places like Hawaii and Alaska.
    My second question is with regards to preclearance. Last 
time you were here there was extensive discussion on the Abu 
Dhabi preclearance. I am curious if there are any plans to 
expand this program, and if so, if you could touch on that a 
little bit, what that is.
    Secretary Johnson. I believe we should expand the 
preclearance program. I think that preclearance is a homeland 
security imperative. I think the more opportunities with host 
governments we have to expand beyond our borders our homeland 
security, we should do that.
    So I believe preclearance is very important. It is a 
priority of mine. I hope to see it expanded beyond Abu Dhabi.
    Ms. Gabbard. What are the priority criteria as different 
countries express interest in this?
    Secretary Johnson. Well, we look at airports that are last 
points of departure into the United States. The security 
measures that they have in place tend to vary. So I would want 
to focus on airports where the security is--could use some 
supplementation.
    But it also depends on the arrangements we are able to make 
with host governments. You know, we depend on having good 
relationships with host governments. I am pleased that we were 
able to work out an arrangement along these lines with the 
government in Abu Dhabi.
    Ms. Gabbard. Thank you. This is an area that we will follow 
up with you and your team on, especially with regards to some 
of the gateways that we have in the Asia-Pacific region where 
we already have a tremendous amount of travel and economic 
trade and opportunity.
    Thank you very much. I yield back.
    Chairman McCaul. Members are advised that we have a vote 
scheduled in the next 15 minutes. So I would ask that we limit 
the time to 3 minutes per questioning.
    Mr. Hudson is now recognized.
    Mr. Hudson. Thank you, Mr. Chairman. You did this to me at 
the last hearing--the 3-minute question.
    Chairman McCaul. Timing is everything.
    Mr. Hudson. Yes, sir.
    Mr. Secretary, thank you for being with us again. I 
appreciate your candor. I appreciate the time you continue to 
give this committee. I think this process is very important.
    I do want to associate myself with Mr. Duncan's comments 
about St. Elizabeths, the issue I raised last time. Again, I 
would hope that we could come up with another plan that is more 
reasonable to the taxpayer.
    But I wanted to focus more on the committee of jurisdiction 
that I chair, the Transportation and Security Committee. Mr. 
Horsford brought up the issue of airport law enforcement 
officers and the need to continue to have that strong working 
relationship.
    As I believe you are aware, I will be holding a hearing at 
Los Angeles International Airport on the issue of the shooting 
that occurred there, and the death of the TSA employee. I think 
there are a lot of important questions that have been raised 
that, you know, I want to look at.
    I do want to applaud Administrator Pistole. I think he is a 
fine public servant. I want to applaud his work on this issue. 
I think he has been very forward thinking in looking at what 
policy changes might need to be affected out of that. But I 
just wanted to say to you that I want to work with you, as we 
can look at the lessons learned from that going forward to try 
and make sure that kind of situation, if it happens again, we 
are better prepared. But certainly, maybe some ways to head 
that off.
    I want to get to a question here. I apologize for talking, 
but in regard to the TSA's budget, I would say that I support--
I was actually pleased with the TSA portion of the budget. I 
support the proposed $100 million reductions, based on risk-
based security efficiencies. I am a strong supporter of risk-
based security. I think that is the way to go.
    We have been waiting for years to see cost savings realized 
there as a result of some of the transition away from the one-
size-fits-all approach to security. This year's budget 
represents a positive first step, in my opinion. I would, 
however, caution that TSA still has a long way to go. With over 
1,200 employees at the headquarters, I believe TSA should be 
able to cut more than six headquarter staff, as we look at some 
of this risk-based security reduction.
    So, the question to you would just be: How much insight and 
input does the Department have in TSA's plans to move to 
PreCheck, and moving forward on risk-based security? What are 
some of your thoughts on that?
    Secretary Johnson. It is part of our--TSA PreCheck is part 
of our overall approach--risk-based--to aviation security, 
border security. I am very aware of it. I support it. I am open 
to TSA PreCheck centers myself. The one out in Dulles.
    I also commend Administrator Pistole for his leadership. I 
appreciate your comments about the TSA budget submission. Given 
your work in the transportation area, I appreciate that.
    Mr. Hudson. Thank you, sir. I look forward to working with 
you.
    Mr. Chairman, I yield back the 6 seconds here.
    Chairman McCaul. That is very generous.
    The gentleman from Arizona, Mr. Barber, is recognized.
    [Laughter.]
    Mr. Barber. Thank you, Mr. Chairman. Thank you again for 
being with us, Mr. Secretary.
    I just have to say, it is really refreshing the way you 
approach this job and these hearings. You are straightforward. 
We know what you mean when you say it, and it is greatly 
appreciated by this Member, and I think all of us.
    When you came to Arizona back in January, I was 
appreciative, as I said last time, that you came to listen and 
see for yourself what is going on in the border.
    As you know, I still, unfortunately, have the most porous 
area of the Southwest Border. When you were there, I know you 
heard from stakeholders, you heard from some of your own staff 
agents, how nimble the cartels are. They move around. They have 
got the technology. They got more money than we could ever 
muster. They spend it wisely to make sure they are two steps 
ahead of us. Back in 2012, the Department rolled out a new 
strategic plan, which was intended to be looking at the risks 
that we saw on the border, that were posed by the movement of 
the cartels and their nimbleness, if you will. We learned from 
GAO that that plan had really very little in it. Didn't have 
goals, didn't have management, or evaluation objectives. It 
didn't have metrics.
    So, my question, really, Mr. Secretary, is: How is it 
possible, since we still don't have those reliable and credible 
metrics, to define what border security progress really means? 
How can we actually put together a budget--how was this budget 
put together in the absence of those kinds of metrics, which I 
know are still a work in progress?
    Secretary Johnson. We are developing metrics. It is 
something that I have spent considerable time with the chief of 
the Border Patrol on. We look at a number of things, including 
the effectiveness rate, and additionally, the percentage of 
those with criminal convictions. I would be happy to be talk to 
you in greater detail about this exact issue.
    We do have a series of things that we look at to define 
low-risk, high-risk, moderate-risk, different corridors and 
sectors. I agree with your assessment of the Arizona border. 
From what I have seen, we have got some issues that we need to 
work on. I personally intend to spend more time in Arizona.
    But I believe that our submission is framed by the chief's 
view of what we need in the different corridors and different 
sectors, given the evolving challenges and threats that we face 
there. I would be happy to talk to you further about this 
subject.
    Mr. Barber. I appreciate that. I just want to draw to your 
attention, while it hasn't passed the House or the Senate yet, 
it is out of this committee. Unanimously, the Border Security 
Results Act does require some metrics to be developed, but in 
consultation with people who actually live and work on the 
ground.
    I will just close with this one, not so much as question as 
a point. I hope that when we look at the increased budget for 
personnel for agents--Border Patrol agents, that we take a look 
at the increase that the Department has proposed to make sure 
that that can be applied to border agent overtime so that we 
never have a gap in the security that they are trying to 
provide to our border and border residents.
    Thank you, Mr. Chairman. Yield back.
    Chairman McCaul. The Chairman now recognizes the gentlelady 
from Indiana, Mrs. Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for returning. You may recall that a couple of weeks 
ago, when you were here, we discussed the National Preparedness 
Grant Program. I want to commend you, because it had been a 
long time coming. But finally, we have received the legislative 
proposal for this program with some explanation. While we are 
still going through it, one of the things that was included in 
it, it said that part of this new consolidated program, of 
which, I am certain that you are aware, have tremendous local 
and State interests in how this National Grant Program would be 
administered.
    Part of it is based on risk and population, but another 
part now says it is based in a--it is going to be competitive--
and wondered if you knew much about how the competitive portion 
might work, or if you know, if you knew that yet.
    Secretary Johnson. Well, I am aware of our current budget 
submission. I recall your comments from the last time I was 
here.
    I dug my--I dug into this process, including how we develop 
the formula for making these allocations with regard to the 
fiscal year 2014 money. The good news for fiscal year 2014 is 
that Congress has given us a little more money to work with 
this year, which I think is welcome.
    I always--I believe that, given my exposure so far, how we 
allocate grants is something that we should continue to 
reevaluate, work on, make sure we have got it right in terms of 
our risk assessments. It is an evolving world. That is 
something I intend to pay personal attention to when I am in 
the job over the next budget cycle.
    Mrs. Brooks. Yes. As I am sure you know, a number of 
communities were cut off of the UASI funding----
    Secretary Johnson. Right.
    Mrs. Brooks [continuing]. In the last cycle. So, it feels 
as if we are reading it right--that communities that had 
previously received that very important funding might now be 
able to compete for such funding. Would that be accurate?
    Secretary Johnson. I welcome the fact that we have more 
money to work with this year.
    Mrs. Brooks. So, you are not certain then if the UASI 
funding will be more competitive this year or not?
    Secretary Johnson. I think that UASI funding will have a 
greater impact this year.
    Mrs. Brooks. Okay.
    Can you share with us very briefly the BioWatch Gen-3 
program was not funded in this cycle? Should we take that as an 
indication that the Department doesn't intend to continue 
pursuit of BioWatch 3, or of the Gen-3 acquisition? Or is the 
review--the analysis of alternatives still on-going for the 
BioWatch program?
    Secretary Johnson. Hold on a second. Hold on.
    Mrs. Brooks. Sorry.
    Secretary Johnson. You are correct that there is no money 
in this current budget submission, but the analysis is on-
going, and I expect to get it soon.
    Mrs. Brooks. Thank you. We appreciate the Department's 
participation in a Classified briefing on bioterrorism threats 
yesterday. Just want to thank you for sending personnel to 
participate in that.
    Thank you. Yield back.
    Secretary Johnson. Thank you.
    Chairman McCaul. The gentlelady from New York, Ms. Clarke, 
is recognized.
    Ms. Clarke. I thank you, Mr. Chairman. I thank you as well, 
Mr. Secretary. You must want to just stand up and take a 
stretch right about now.
    Secretary Johnson. I will--I know I am in the home stretch, 
so----
    Ms. Clarke. Okay. Well, then----
    Secretary Johnson. This is my fourth time in 3 days, so----
    Ms. Clarke. I can imagine.
    Mr. Secretary, I----
    Secretary Johnson. You can imagine what is coming next.
    Ms. Clarke. Yes.
    I wanted to just circle around to cybersecurity. Because 
you have a 10 percent cut proposed in the Science and 
Technology directorate. I was wondering whether you believe 
that DHS can effectively accomplish and enhance its mission in 
this space, given this cut. I realize that only 3 percent of 
the DHS budget is dedicated to cybersecurity efforts, whether 
you think this is sufficient funding for continued education 
and workforce development, as well as support for the 
Multistate Information Security and Analysis centers.
    Secretary Johnson. I believe that our funding request for 
cybersecurity is adequate, given the budget environment we are 
in. I know that insofar as S&T is concerned, our request for 
cyber research funding is at $72 million, I believe. Last year, 
it was $70 million, so there is a slight plus-up there. In 
addition to our other programs and initiatives, I believe that 
the funding is adequate. But we need to keep at this year after 
year after year.
    Ms. Clarke. I am just hoping that we can do a maintenance 
of effort and somewhat enhance, as well. Because that area is 
growing in threats, as opposed to--it is not a static 
environment that you are dealing with, so--I will take you at 
your word, Mr. Secretary.
    Then I wanted to just circle back to the grants that have 
historically come through the National Preparedness Grant 
Program. I am concerned about the High-risk Urban Areas 
Program. I understand that the National Preparedness Grant 
Program will continue to recognize high-risk urban areas, and 
the Department's grant program consolidates the proposals. 
However, it is unclear as to whether specific funding will be 
set aside to fund these jurisdictions.
    Does the proposal envision the funding will continue to be 
set aside for high-risk urban areas?
    Secretary Johnson. Well, there are certain grant programs 
that are not being consolidated in our proposal. The idea 
behind consolidation is to increase effectiveness in oversight, 
reduce inefficiency, and ensure that more grant dollars get to 
the intended beneficiaries, in high-risk areas, in particular.
    Ms. Clarke. Very well. I appreciate your work, and I look 
forward to your continued success, sir. Thank you.
    I yield back, 4 seconds.
    Chairman McCaul. Very generous, once again.
    The gentleman from Pennsylvania, Mr. Perry, is recognized.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Secretary, it is a privilege to speak with you again. I 
just want to follow up on CPB's use of unmanned aerial drones. 
Just according to my understanding, according to U.S. Code, the 
purpose of the drones is for investigating smuggling of U.S. 
goods or goods into the United States, smuggling of goods into 
foreign countries, seizure and forfeiture of vessels, aviation 
smuggling, and general authorities.
    I will have a question regarding the use of the drones 
for--with the U.S. Forest Service and the Minnesota Department 
of Natural Resources, although acknowledging that they can be 
loaned out to--the use of them can be loaned out to different 
agencies. But you must understand that I am concerned about an 
appropriation of Federal funds, not knowing exactly what the 
scope of the use of the drones may be.
    You know, with that in mind, we also know that evidence 
acquired by DHS drones for cases not involving immigration or 
drug smuggling are admissible in the court of law, and in 
particular regarding a North Dakota Federal judge ruling in the 
case involving cattle.
    That having been said, you know, we have got--DHS has got 
10 of these things. They use the MQ9-Bravo--it has got a wing-
span of 66 feet, which is--wouldn't fit in this room. It is 
three times longer than it is this way, and it is longer than 
it is that way. It is $56 million; 50,000 feet is the service 
ceiling on the thing; and can carry a payload of 3,000 pounds.
    The Air Force, generally speaking, doesn't use this one. 
The Air Force uses one that is significantly cheaper; you know, 
carries a payload that is $20 million; carries 450 pounds. I 
mean, the camera that you are using is about 250 pounds.
    With all that in mind, I am just wondering if you are 
willing to submit to this committee the mission parameters for 
assignments in which the DHS drones have been used by other 
agencies, and if you are willing to submit the flight logs for 
those missions as well. I will just be clear. I will let you 
know what my concerns are.
    I am wondering if they are being used in areas in the 
country not along the border. I understand that there are some 
transition routes, one across the Gulf, and then across the 
central portion of the country, going from the Northern to the 
Southern Border; whether they are being used for other purposes 
not related to border security; and the other things already 
enumerated; and if they are being used for environmental 
purposes. Because my concern is that they would be using to spy 
on Americans or potentially being used to spy on Americans.
    If you would also--and if you know now, that would be great 
as well, under general authorities--I listed the things that 
they are to be used for. I also said ``general authorities.'' 
Do you know what is included under ``general authorities''? 
Just curious if you know, because I don't.
    Secretary Johnson. You must be a lawyer.
    Mr. Perry. I am not; not even close.
    Secretary Johnson. Well, that was pretty good.
    Mr. Perry. I am trying to get it in.
    Secretary Johnson. Look, in my view, the role, the purpose 
of having UAVs is border security. I can envision circumstances 
where we would support a law enforcement mission elsewhere. I 
also believe that we need to have adequate privacy protections 
in place.
    One of my objectives is to advance and refine our current 
privacy protections when it comes to aerial surveillance, 
because I recognize that is important. A number of people have 
raised that with me.
    Mr. Perry. Could we get that information that I asked for, 
though?
    Secretary Johnson. I will take that under advisement.
    Mr. Perry. Thank you.
    I yield back.
    Chairman McCaul. Mr. Richmond is recognized.
    Mr. Richmond. Thank you, Mr. Chairman.
    Mr. Secretary, I will try to be very quick. The Senate 
appears to be poised to approve a flood insurance reform bill 
that we passed out of the House last week, which hopefully will 
go on to the President, and the President will sign.
    Does FEMA have the resources to implement the changes we 
have made--that we made in Biggert-Waters?
    Secretary Johnson. I believe so. I know that there was an 
issue with the affordability study. I think the issue there was 
that there was not adequate funding to do the affordability 
study.
    Mr. Richmond. I guess the other question would be the 
resources and FEMA's process of evaluating non-Federally 
certified levees in its mapping process. I can give you an 
example in my district, in one of the parishes where they came 
in and did the maps. They just completely ignored two 
Federally-constructed levees. So the rates were enormous, and 
requires the community to appeal and do all of those things so 
that they can get accurate and affordable rates.
    So the general question is just, in your opinion, do you 
think FEMA is ready to adhere and can quickly implement the 
changes we made so that we can secure home values in areas that 
may be subject to flooding?
    Secretary Johnson. I believe so. I would add that in the 
process of developing the maps for setting premiums, there is a 
built-in community consultation and an appeal process. I am 
encouraging people to participate in that process. I am 
encouraging local communities to participate in that process so 
we have informed views.
    Mr. Richmond. Thank you, Mr. Secretary, and I will yield 
back.
    Chairman McCaul. Mr. Sanford, from South Carolina is 
recognized.
    Mr. Sanford. Mr. Secretary, thank you for past service to 
the country and your present service to the country.
    We had a subcommittee hearing on a GAO report on basically 
behavioral observation and its effectiveness. What the GAO said 
was basically the program that we spent $1 billion on, and we 
have over 3,000 officers enlisted in, isn't working; that it is 
not effective; it hadn't produced results.
    That being the case, why would it be left in your budget?
    Secretary Johnson. Sir, my understanding is that TSA 
regards the program as a valuable one, and one that should be 
funded. It supports aviation security. That is our assessment. 
I am aware of the GAO report.
    Mr. Sanford. So you would disagree with the GAO report.
    Secretary Johnson. Yes.
    Mr. Sanford. You talked a moment ago about bringing a 
private-sector perspective to the way that the budget was 
configured within Homeland Security. If that is the case, how 
many business guys would go out there and subscribe to a 
program wherein results are 50-50 at best?
    Secretary Johnson. Our assessment is that it is a valuable 
program.
    Mr. Sanford. I have I guess a couple of minutes. So, flat-
out disagree with them. Then I would look for other 
efficiencies. If you disagree with the GAO, you have got about 
a 2.5 percent cut in your budget. If you look at the long-term 
deficits in this country, they are closer to 5 percent of GDP, 
something along those lines.
    So, you know, if we don't get our numbers right, probably 
much bigger cuts to come. If it is not in programs like 
behavioral detection, which again GAO has strongly condemned, 
where would you look for cuts? What are two of the least-
effective programs within Homeland Security based on your 
understanding of the program right now?
    Secretary Johnson. Well, just in our discussion this 
afternoon, Members have highlighted places where we have 
identified areas where we think we can work with less money, 
leverage other resources within the Department. We have 
identified inefficiencies. You know, we have a top line that we 
must work with.
    So----
    Mr. Sanford. I understand. But what would, not the Members, 
but what would your idea of those two programs be?
    Secretary Johnson. In our budget submission, we have 
identified many areas where we think there are inefficiencies, 
including within TSA. We are decommissioning a number of assets 
in the Coast Guard, for example.
    Mr. Sanford. I am just asking for two. Give me just two.
    Secretary Johnson. Decommissioning assets in the Coast 
Guard that we--that are old, that we no longer need; and 
certain headquarters inefficiencies, sir.
    Mr. Sanford. Okay.
    Secretary Johnson. I am committed to look for others as 
well in the next year's budget and the budget after that and 
the budget after that, if I am still around.
    Mr. Sanford. Fair enough, sir. Yield back.
    Chairman McCaul. Thank you, sir.
    The gentleman from New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again.
    The fiscal year 2015 budget anticipates $100 million in 
savings through the reduction of 1,441 screeners. These 
reductions are purportedly going to result from risk-based 
efficiencies. How does the TSA plan to eliminate these TSA 
officer positions? Will it be reduction? Will the reduction be 
a result of attrition or layoffs?
    Secretary Johnson. Let me get back to you on that. I can't 
answer with any specificity, but I would like to take that for 
the record, sir, and get back to you on that.
    Mr. Payne. Okay. In terms of a lot of discussion around 
funding today, historically grants funded through Homeland 
Security grant programs have been targeted to address the 
unique threats posed by terrorism. Although this committee has 
supported investments that could have an all-hazards benefit, 
the primary goals have been terrorism prevention, protection, 
response, and recovery.
    The proposed National preparedness grant, as an all-hazards 
grant program, would eliminate the requirement that a portion 
of the funding be dedicated to law enforcement terrorism 
prevention activities. Over a decade after the attacks of 
September 11, such a move appears to reflect the view that 
terrorism should no longer be a focus. In the wake of the 
Boston Marathon bombing, this view is particularly troubling.
    Can you explain the rationale for that?
    Secretary Johnson. I would not want anything in our budget 
submission to be interpreted as a sign that we no longer view 
counterterrorism as a priority. I believe it is the cornerstone 
of our mission and I am personally committed to it.
    If there is a decrease in funding in some respect for an 
important Homeland Security mission, my sense is that it is 
because we believe we can leverage other programs that we have.
    Mr. Payne. Okay. Well, I would like to explore that topic 
with you further to see what those programs would be.
    Thank you, and I yield back.
    Chairman McCaul. Thank you.
    Mr. Secretary, let me say thank you for being here today, 
for the second time. We appreciate, again, your communications 
and outreach to us. You may have additional questions from the 
Members in writing.
    With that, the committee stands adjourned.
    [Whereupon, at 4:20 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Question From Honorable Susan W. Brooks for Honorable Jeh C. Johnson
    Question. I am concerned that the President's request includes a 
nearly $1 million reduction for the Office of Emergency Communications, 
which according to NPPD officials will result in a reduction of the 
number of Technical Assistance offerings to State, local, Tribal, and 
territorial governments. How will requests for Technical Assistance 
engagements that are continued be prioritized?
    Answer. Response was not received at the time of publication.
   Question From Honorable Steve Daines for Honorable Jeh C. Johnson
    Question. The Federal Acquisition Regulations (FAR) allow for 
various procurement tools that would hold contractors accountable for 
their performance, preventing significant cost overruns, and bring a 
greater return on investment of the taxpayer dollar. Incentives are 
key. Would DHS consider contracting mechanisms where contractors would 
be required to put a portion of their contract revenue at risk--based 
on performance incentives (e.g. firm fixed price with incentive fee)?
    Answer. Response was not received at the time of publication.

                                 [all]

</pre></body></html>
